September 30, 2009

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

SUBJECT: Management Advisory Report – Market Rental Rates for 117
         Leased Postal Service Facilities (Report Number SA-MA-09-002)

We are providing the attached summary prepared for the U.S. Postal Service Office of
Inspector General (OIG) by NGI-Solutions (NGI) (Project Number 09YG005SA001).
The OIG initially identified 117 facilities where the annual lease cost appeared to be
significantly higher than the fair market value when compared to Postal Service leases
in the respective areas.1 The OIG’s objective was to determine whether the Postal
Service was paying above-market rent for these facilities when compared to commercial
rates. The OIG contracted with NGI to assess the market rental rate of the 117 leased
Postal Service facilities. See Appendix A for additional detail information about these
leases.

NGI reviewed the detailed information the OIG provided on the 117 leases and the initial
analysis of Postal Service leases that identified the 117 leases as “suspicious” or
significantly above market. Based on a review of lease attributes, they determined the
market rental rate for each of the 117 Postal Service facilities. It analyzed and verified
data from reliable public and private sources and provided the OIG its analyses,
conclusions, and recommendations.

The assessment of market rental rates found that 35 of the 117 leases reviewed (or 30
percent) had costs above the range of the market rates.2 The 35 leases were, on
average, 26 percent above market rates, which represents $476,000 of the $1.8 million
total annual rent for the 35 leases and 7 percent of the $7 million total annual rent for
the 117 leased facilities. It noted that 21 of the 35 above-market leases were in rural
areas where the lack of available facilities could result in an above-market rental rates.
They also found that 68 of the leases (or 58 percent) were within the market range and
14 of the 117 leases (or 12 percent) were below the market range.




1
 OIG final audit report titled Postal Service Lease Process (Report Number SA-AR-09-006, dated September 29,
2009). The OIG found the Postal Service could enhance their procedures to ensure leases are more
economically beneficial to the Postal Service and made four recommendations agreed by management.
2
    As of August 21, 2009.
Based on this analysis, the Postal Service:

         Should use market rental rate data obtained from commercial sources rather
          than rely on its own existing lease rate data when evaluating existing and new
          leases.
         May be paying above commercial market rent at locations across the country.
          There may be opportunities to reduce its annual lease expense over time if
          leases are renegotiated and lowered due to the overall lower level of rates in
          most parts of the country due to the current economic situation and through more
          analysis and interaction between the lease acquisition function and the retail
          location selection function.

The OIG plans to perform a subsequent review related to the issues identified in this
report. Therefore, the OIG is not making any recommendations regarding the issues
raised in the NGI report. We discussed these observations and conclusions with
management on September 24, 2009, and included their comments where appropriate.
Management chose not to provide written comments.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions, please contact Stephen Chow, Acting Director, Inspection
Service and Facilities, or me at (703) 248-2100.


  E-Signed by Office of Inspector General
    VERIFY authenticity with ApproveIt



Andrea L. Deadwyler
Acting Deputy Assistant Inspector General
 for Support Operations

Attachment

cc:       Steven J. Forte
          All Area FSO Managers
          Tim J. Perez
          Stephen C. Roth
          Bill Harris



                               Appendix A has been redacted




                                    NGI SOLUTIONS CONFIDENTIAL
